Audit of the American Institute of
           Mathematics



   National Science Foundation
   Office of Inspector General

     OIG Report Number 07-1-011
          March 29, 2007
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
`
TABLE OF CONTENTS

INTRODUCTION

    Background                                     1

    Objective, Scope, and Methodology              2


EXECUTIVE SUMMARY                                  3


FINDINGS AND RECOMMENDATIONS

    A. Internal Control System                     5

    B. Distribution of Direct and Indirect Costs   8

    C. Subaward and Independent Contractor Costs   12

    D. Costs Claimed and Reported                  14

    E. Unsupported Costs                           18


APPENDICES

    Schedules of Award Costs                       A

    Grantee Response to Draft Audit Report         B
ACRONYMS

AIM
American Institute of Mathematics

ARCC
AIM Research Conference Center

CPA
Certified Public Accountant

DMS
NSF’s Department of Mathematical Sciences

FCTR
Federal Cash Transaction Report

FRG
Focused Research Group

GC-1
NSF’s Grant General Conditions

OMB
Office of Management and Budget

A-110
OMB Circular A-110 Uniform Administrative Requirements for Grants and Agreements
with Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations

A-122
OMB Circular A-122 Cost Principles for Non-Profit Institutions

A-133
OMB Circular A-133 Audits of States, Local Governments, and Non-Profit Organizations
BACKGROUND

        The American Institute of Mathematics (AIM) is a nonprofit organization with
goals “to further the frontiers of mathematics through focused collaborative research, to
preserve the mathematical literature through the collection of a comprehensive
mathematics library, and to accelerate the future discoveries of mathematics through
targeted outreach activities, especially those that increase the integration of young people
into mathematical research.” Founded in 1994, AIM is located in Palo Alto, California.

       As a National Science Foundation (NSF) awardee, AIM is required to follow the
cost principles specified by OMB Circular A-122, Cost Principles for Nonprofit
Organizations, the Federal administrative requirements contained in OMB Circular A-
110, Uniform Administrative Requirements for Grants and Agreements with Institutions
of Higher Education, Hospitals, and Other Non-Profit Organizations and the audit
requirements contained in OMB Circular A-133, Audits for States, Local Governments
and Non-profit Organizations.

        AIM is governed by a five-member Board of Trustees that oversees all of AIM’s
activities, including the approval of its general expenditures. AIM also has an Advisory
Board responsible for giving advice on the general direction of AIM, a Scientific Board
that evaluates and recommends workshops, and a Human Resources Board that is
responsible for increasing members of under-represented groups, especially women, in
the activities of the AIM Research Conference Center (ARCC).

        In addition to NSF funding, AIM has a founding sponsor who provides AIM’s
office space and utilities. The sponsor also provided cash contributions of $510,000,
$815,000, and $720,000 respectively in FY 2002, 2003, and 2004 that paid for the
Executive Director’s compensation, workers compensation insurance, supplies, and other
costs. The donated office space, utilities, and a portion of the cash contributions are used
as cost sharing under the NSF ARCC award.

       The seven NSF awards covered by this audit represent 100 percent of NSF awards
reported in AIM’s Federal Cash Transaction Report (FCTR) for the period ending
December 31, 2005. The awards had cumulative NSF funding as of that date of $6.1
million. Since 2002, NSF award expenditures have represented 55 to 75 percent of
AIM’s total expenses. In 2004, AIM’s A-133 single audit reported $1,309,554 in NSF
award expenditures, representing 73 percent of AIM’s total expenses.




                                             1
        Table 1 - AIM Awards and Effective Periods as of December 2005

       Award                                                                 Award
       Number           Period                      Title                    Amount
                                          ARCC: A National Conference
    DMS−0111966     7/2002 to 6/2006               Center                    $ 3,866,400

    DMS−0138597     6/2002 to 5/2006      L-functions: Zeros and Values      $    69,000
                                       FRG: Random Matrix Models, Zeros
    DMS−0244660     6/2003 to 5/2006      of L-Functions and Arithmetic      $   989,823
                                        FRG: Holomorphic Curves in Low
    DMS−0244663     9/2003 to 8/2006          Dimensional Topology           $   828,000
                                        Graduate Opportunities in Number
    DMS−0352870    1/2004 to 12/2005   Theory and Random Matrix Theory       $    16,244
                                         FRG: Minimal Surfaces, Moduli
    DMS−0440545     5/2004 to 6/2006         Spaces and Computation          $   110,371
                                          FRG: Atlas of Lie Groups and
    DMS−0532088     7/2005 to 6/2006             Representations             $   229,957

                   December 31, 2005            Cumulative Funding           $ 6,109,795

OBJECTIVE, SCOPE, AND METHODOLOGY

       The audit objective was to evaluate whether AIM’s system of internal control was
adequate to manage, account for, and monitor its NSF award funds in accordance with
OMB and NSF award requirements. To accomplish the objective, we:

•    Reviewed the NSF award jackets and AIM’s A-133 audit reports;

•    Interviewed NSF personnel in the Division of Grants and Agreements and the
     Division of Mathematical Sciences to discuss the purpose of the awards and the
     general and specific award requirements;

•    Interviewed the AIM Executive Director and Financial Officer to discuss AIM’s
     policies, procedures, and practices related to the administration of NSF awards;

•    Discussed AIM’s accounting system with its external accountants and auditors; and,

        We reviewed and tested internal controls through inquiry of AIM personnel,
inspection of randomly sampled documents and records, observation of AIM activities,
and reconciliation of AIM’s claimed costs to its OMB Circular A-133 audit reports and
the FCTR submitted to NSF as of December 31, 2005. We conducted our audit in
accordance with the Comptroller General’s Government Audit Standards and included
such tests of accounting records and other auditing procedures as we considered
necessary to address the audit objective.


                                            2
EXECUTIVE SUMMARY

       We found that AIM did not establish an adequate system of internal controls as
required by OMB Circular A-110, Uniform Administrative Requirements for Grants and
Agreements With Institutions of Higher Education, Hospitals, and Other Non-Profit
Organizations or as recommended by the Committee of Sponsoring Organizations
(COSO) in its Internal Control – Integrated Framework. Specifically:

    •   For the seven grants reviewed, with total funding of $6.1 million, AIM was
        unable to provide adequate documentation to support (a) XXXX million of
        employee salary; (b) XXXXX of NSF funds passed-through to subawardees or
        independent contractors; and (c) XXXXXX of travel, participant support, and
        indirect costs.

    •   AIM did not have a negotiated and approved indirect cost rate with NSF, its
        cognizant federal agency. Instead, AIM charged or cost shared almost all of its
        “indirect” costs directly to one NSF award. As a result, AIM may have charged
        as much as $292,015 of costs to NSF that did not benefit the NSF award.

    •   AIM did not have a process to oversee its subrecipients and independent
        contractors. Specifically, AIM did not establish subaward or other agreements to
        set programmatic or financial reporting requirements, disbursed award funds
        based on budgeted rather than actual costs, and did not verify that the amount
        paid to these individuals was reasonable relative to the base salary paid by their
        employing institution.

    •   AIM’s financial accounting system was unable to ensure accurate, current, and
        complete disclosure of the financial results of its NSF awards. We found that
        AIM used both an automated accounting system and manually prepared
        spreadsheets to track and report award costs by NSF award. However, the
        amounts reported in each of these systems did not agree.

        Lack of familiarity with Federal grant requirements and lack of written policies
and procedures were the primary factors contributing to these weaknesses. We believe
that AIM needs to provide staff training and establish written policies and procedures for
ensuring compliance with NSF grant requirements.               Also, we made specific
recommendations to improve AIM’s internal controls over (1) employee salary charges,
(2) the documentation and allocation of indirect costs, (3) NSF funds passed-through to
subawardees or independent contractors, (4) participant support costs, (5) financial
accounting and reporting, and (6) grant budget monitoring.




                                            3
Summary of Auditee’s Response

AIM’s full response is at Appendix B, but excerpts of certain portions of the response are
provided below.

       AIM made many changes in our policies and procedures because of the audit
recommendations and we are working to become expert in the applicable OMB Circular
standards. We take this opportunity to mention that:

   •   Documentation for employee salaries is being done with the use of monthly Effort
       Reports starting with January 2006 payroll.

   •   All new subawardees and independent contractors are required to complete
       consultant agreements and other paperwork prior to work on our grants and
       programs.

   •   AIM has written a policy and implemented procedures requiring proper
       documentation of travel and participant support reimbursements.

   •   AIM plans to negotiate an indirect cost rate with NSF in the near future.

   •   The accounting system and methodology have undergone many changes
       including that the FCTR spreadsheets now are reconciled against the automated
       accounting system, and

   •   AIM is trying to provide current employees with additional training and will send
       one member to the NSF Regional Grants Conference in March 2007.

Auditors’ Comments

       AIM’s comments appear responsive to the recommendations.




                                            4
A. INTERNAL CONTROL SYSTEM WAS INADEQUATE

        OMB Circular A-110 requires entities receiving Federal awards to establish and
maintain internal controls that are designed to ensure compliance with Federal laws,
regulations, and program compliance. Further, OMB Circular A-133, Audits of States,
Local Governments, and Non-Profit Organizations, defines internal control as “a process,
effected by an entity’s management and personnel, designed to provide reasonable
assurance regarding the achievement of objectives in the following categories: (1)
effectiveness and efficiency of operations; (2) reliability of financial reporting; and (3)
compliance with applicable laws and regulations.”

        In September 2004, the Committee of Sponsoring Organizations (COSO)
reaffirmed that businesses and other entities should use the guidance provided in its
Internal Control – Integrated Framework as the basis for establishing internal controls
and providing the evaluation tools needed for assessing their control systems. Since its
issuance in 1992, this Framework has served as a standard for assessing and enhancing
organizational internal control systems. In 2006, the COSO issued additional guidance
on how to apply the COSO framework cost-effectively to smaller organizations. In both
large and small organizations, management sets the operational, compliance, and
financial reporting objectives; puts the control mechanisms in place; and monitors and
evaluates whether controls are operating as intended. Further, people make internal
control work. Thus, an effective board of directors, experienced management,
sufficiently trained personnel, and clear job descriptions and responsibilities are critical
elements of a successful internal control program.

        However, contrary to OMB requirements, we found that AIM had neither
identified financial reporting and compliance objectives formally nor established and
documented a system of internal control to accomplish those objectives. Specifically,
AIM lacked written policies and procedures for (1) financial accounting and reporting;
(2) procurement; (3) determining the allocability and allowability of costs charged or
cost-shared to NSF awards; and (4) requesting funds from NSF. AIM has an employee
handbook that describes its workplace standards and personnel policies and practices, but
AIM did not maintain complete personnel files or clear job descriptions.

        In addition, AIM’s A-133 auditors in both FY 2003 and FY 2004 identified
internal control weaknesses related to a lack of segregation of duties. While the auditors
recognized that small organizations such as AIM cannot have ideal segregation of duties,
they recommended that AIM’s Executive Director and/or its Board of Trustees increase
their grant monitoring activities. Responsive to the auditor’s recommendations, the
Trustees increased the Executive Director’s financial monitoring responsibilities to
address the concerns regarding segregation of duties.




                                             5
        We also found financial control areas that need improvement. These weaknesses
are discussed in more detail in subsequent audit findings:

    •   AIM was unable to provide adequate documentation to support (a) $1.57 million
        of employee salary, (b) $882,054 of NSF funds passed-through to subawardees or
        independent contractors, and (c) $23,531 of travel, participant support, and
        indirect costs.

    •   AIM did not have a negotiated and approved indirect cost rate with NSF, its
        cognizant federal agency. Instead, AIM charged or cost shared almost all of its
        “indirect” costs directly to one NSF award. As a result, AIM may have charged
        as much as $292,015 of costs to NSF that did not benefit the NSF award.

    •   AIM did not have a process to oversee its subrecipients and independent
        contractors. Specifically, AIM did not establish subaward or other agreements to
        set programmatic or financial reporting requirements, disbursed award funds
        based on budgeted rather than actual costs, and did not verify that the amount
        paid to these individuals was reasonable relative to their base salary.

    •   AIM’s financial accounting system was unable to ensure accurate, current, and
        complete disclosure of the financial results of its NSF awards. We found that
        AIM used both an automated accounting system and manually prepared
        spreadsheets to track and report award costs by NSF award. However, the
        amounts reported in each of these systems did not agree. As a result, award costs
        claimed by AIM for six of the seven NSF awards covered by our audit did not
        agree with the amounts reported to NSF on the December 31, 2005, FCTR.

         To address these control weaknesses, AIM needs to ensure that its staff receive
sufficient training in Federal award regulations and have clear job descriptions for its
critical positions. To guide the Board of Trustees and AIM’s employees, AIM needs to
develop written policies and procedures for the conduct of financial and grant compliance
duties. AIM’s Board of Trustees should monitor and evaluate the implementation and
effectiveness of AIM’s Federal grant management processes on a continual basis.

        Responsive to these concerns, AIM’s Board of Trustees and the Executive
Director have acknowledged, in correspondence subsequent to our visit, the seriousness
of the identified grants management control deficiencies and the need to place a high
priority on addressing them. The Executive Director reported that AIM’s staff has
presented detailed reports of AIM’s financial transactions, grants, and audit items at each
Board of Trustees meeting since July 2006, and that one trustee now acts as AIM’s
oversight official to review any audit findings and internal corrective actions.




                                            6
       Accordingly, we recommend that the NSF Directors of the Division of Grants and
Agreements and the Division of Institution and Award Support direct AIM to develop
and implement an internal control system to administer and monitor NSF funds. This
process should include:

   1. Developing written policies and procedures to guide AIM’s Board of Trustees and
      its employees in the conduct of their financial and grant compliance duties;

   2. Maintaining current and complete personnel files for all AIM employees and clear
      job descriptions for its critical financial and grant management positions; and,

   3. Training and ensuring on an ongoing basis that personnel are knowledgeable of
      Federal and NSF grant regulations.


Auditee’s Response

   A.1 AIM is working very hard to correct or establish proper policies and procedures
   that meet the standards and regulations that Institutions of our type are required to
   operate by. AIM’s Executive Director and its Board of Trustees have increased
   financial monitoring activities and are mindful that this is an ongoing process. The
   Trustees have received detailed financial reports on a regular basis since July 2006.

   A.2 AIM’s active employee files were determined to be complete and current as of
   June 2006 and job descriptions for the financial and grant management positions will
   be improved to ensure clarity and completeness.

   A.3 Key employee training will include at least one training/compliance seminar per
   year and key staff will be required to keep current with amendments and changes to
   OMB Circulars and NSF grants policies.

Auditors’ Response

   AIM comments appear responsive to the recommendations.




                                           7
B.    INTERNAL CONTROLS OVER THE DISTRIBUTION OF DIRECT AND
      INDIRECT COSTS WAS INADEQUATE

         AIM did not establish internal controls for ensuring that salary and other costs
were documented and distributed equitably to all AIM activities, including those not
grant-related. Specifically, AIM did not have signed after-the-fact activity reports to
account for the total activity of its salaried employees and did not have a negotiated
indirect cost rate agreement with NSF, its cognizant Federal agency.1 As a result, (1)
AIM could not support $1.57 million in employee compensation, equivalent to 35 percent
of claimed costs, and (2) may have allocated as much as $292,0152 of “indirect” costs to
NSF that did not benefit the NSF awards.

        OMB Circular A-122, Cost Principles for Non-Profit Organizations, requires that
personnel costs be reasonable for, and allocable to, the performance of the award and be
documented adequately. As such, grantees must have signed after-the-fact activity
reports accounting for the total activity for which its employees are compensated and a
process to distribute labor costs equitably to the activities benefited. The labor activity
reports must be prepared at least monthly and must coincide with one or more pay
periods. Budget estimates determined before the services are performed do not qualify as
support for charges to awards. Also, salaries and wages of employees used in meeting
cost-sharing requirements must be supported in the same manner.

Salary Costs Were Not Supported by Adequate Documentation

       We found that AIM does not maintain labor activity reports for its salaried
employees representing 90 percent of total employee labor costs charged to NSF. During
the audit, we tested xxxxx FY 2005 salary and wage transactions totaling $107,796 and
found that 94 percent ($102,033) was not supported by signed activity reports as required
by OMB Circular A-122.3 In addition, four of six salaried employees charged 100
percent of their time to the ARCC award4 although at least two employees, the Executive
Director and the Financial Officer, have responsibilities for other AIM activities that are
not funded by the NSF awards.



1
        Cognizant or oversight agency means the Federal agency responsible for negotiating and
approving indirect cost rates for an organization on behalf of all Federal agencies.
2
          The estimate was derived by applying the non-Federal percentage of AIM’s expenditures (27%,
25%, and 45% in 2004, 2003, and 2002) to costs charged and cost shared in those years for salaried
employees compensation (exclusive of the Executive Director) and for maintenance, telephone, internet,
and utility costs.
3
         To support the salary and wages paid, AIM provided payroll records of the employees’ gross pay,
Federal taxes, state/local taxes, other deductions, and net pay.
4
        One AIM employee drew salary from the ARCC award and summer salary from another award
and about 77% of the Executive Director’s salary is cost shared to the ARCC award.


                                                   8
        AIM charged or cost shared XXX million to NSF for employee salary and wages
from 2002 to 2005. However, because AIM did not establish policies and procedures to
implement the OMB A-122 documentation requirements for salary and effort
distribution, its salaried employees did not maintain activity reports or certify that their
effort was distributed equitably to all AIM activities, including those not grant-related.
Only AIM’s hourly wage employees maintained timecards subject to supervisory review
each pay period, and thus, met the requirements to support award charges.

        There was no documentation to verify the actual activities on which the salaried
employees spent their time. As a result, we questioned $1.57 million in labor costs of the
salaried employees, including the cost-shared compensation, as unsupported costs.
Employee compensation charged to NSF is shown in Table 2.

             Table 2: Total Salary and Wages Charged For AIM Employees

                                         NSF Grant Number
 Cost Category       0111966   0138597    0244660 0244663   0440545   0532088   Unsupported
 Payroll, Salaried   XXXXXX                XXXX                                   $1,184,367
 Payroll, Hourly     XXXXXX                                                       $        0
 Cost Sharing        XXXXXX                                                       $ 389,900
   Total             XXXXXX                XXXX                                   $1,574,267

AIM Does Not Have an Indirect Cost Rate

        OMB Circular A-122 allows grantees to charge both direct and indirect costs to
NSF awards and provides several methodologies for calculating indirect cost rates.
Indirect expenses include activities and supplies that have been incurred for common or
joint objectives. Examples of indirect costs include the costs of operating and
maintaining facilities and general administration and expenses, such as the salaries of
executive officers, personnel administrators, and accountants [emphasis added].
Unlike direct costs, indirect costs benefit a number of awards or activities and are not
easily traceable to a specific award. Thus, indirect cost charges generally appear in an
award budget as a percentage of direct costs.

        Although AIM is required to negotiate an indirect cost rate with NSF, its
cognizant agency, AIM never requested an indirect cost rate from NSF because much of
its “indirect” costs are paid by its founding sponsor or were proposed by AIM and
approved by NSF to charge as direct costs to the NSF ARCC award. Further, although
AIM pro-rates the value of the donated office space to NSF, it does not use a prorated
methodology to distribute the rest of its indirect costs such as maintenance and utility
costs. AIM charged the full cost of the Financial Officer to the ARCC award. However,
attributing the salaried position directly to one NSF award ignores the management and
administrative responsibilities inherent in that position for all of AIM’s activities, which
include some activities not funded by NSF awards. As noted in the previous section, the
amount of effort contributed to indirect functions by salaried employees is
undocumented.



                                               9
        As a result, we estimate that AIM may have claimed as much as $292,015 in
excess indirect costs to the NSF ARCC award for AIM’s non-Federal activities. This
estimate is based on a review of AIM’s audited financial statements for fiscal years 2002
to 2004. During this three-year period, AIM incurred 25 to 45 percent of its total costs
for activities not related to its NSF awards. We applied the non-Federal percentage of
AIM’s expenditures (27%, 25%, and 45% in 2004, 2003, and 2002) to costs charged and
cost shared in those years for AIM’s salaried employee compensation (exclusive of the
Executive Director) and for maintenance, telephone, internet, and utilities.


                       Table 3 – Federal and Non-Federal Activity


  Fiscal        Total            Federal           Cost        Non-Federal       % Non-
  Year       Expenditures      Expenditures       Sharing        Activity        Federal
                                                                                 Activity
    2002         $1,517,583          $626,129      $208,775         $682,679       XXXX
    2003         $2,169,810        $1,045,358      $592,757         $531,695       XXXX
    2004         $2,518,118        $1,309,554      $536,751         $671,813       XXXX


        Further, AIM overcharged the ARCC award for indirect costs that should have
been allocated over all NSF awards. Because AIM does not have a process for
establishing an annual indirect cost rate and did not maintain after-the-fact activity
reports for its salaried employees, it is unable to provide an accurate cost disclosure for
each NSF project and for AIM overall.

Recommendation

        We recommend that the NSF Directors of the Division of Grants and Agreements
and the Division of Institution and Award Support direct AIM to determine whether
excess indirect costs have been charged to the ARCC award and to develop and
implement a cost allocation system with policies and control processes to administer and
monitor the allocation of direct and indirect costs to NSF awards and AIM's non-Federal
activity. Specifically, AIM should:

   1. Provide adequate documentation to support the XXXX million in claimed
      employee salary costs to ensure that the costs represent payments for actual
      services provided and are properly allocated, or return the funds to NSF;

   2. Establish a process to document and certify monthly after-the-fact activity reports
      for direct and indirect cost activities of AIM’s salaried employees;

   3. Develop and implement written policies and procedures for the classification,
      recording, and reporting of direct and indirect costs in the accounting system;



                                            10
   4. Develop and submit an annual indirect cost proposal to NSF for review and
      approval by NSF’s Cost Analysis and Audit Resolution Branch.


Auditee’s Response

   B.1 AIM agrees that the claimed salary costs lacked documentation.

   B.2 AIM agrees and established a process for documenting and certifying the
   activities of AIM’s employees in January 2006.

   B.3 AIM concurs and is in the process of developing and implementing written
   policies and procedures for the classification, recording, and reporting of direct and
   indirect costs in the accounting system.

   B. 4 AIM agrees that an indirect cost rate is needed and will develop and submit an
   annual indirect cost rate proposal to NSF.

Auditors’ Response

   AIM comments appear responsive to the recommendations.




                                          11
C.   MONITORING OF SUBAWARD AND INDEPENDENT CONTRACTOR
     COSTS WAS INADEQUATE

        AIM did not have a process to oversee its subrecipients and independent
contractors to ensure that costs charged to NSF awards were documented and benefited
the NSF awards. As a result, XX percent of the XXXX paid to Principal Investigators
(PIs) and students employed by other organizations was not supported.

       OMB Circular A-110 states that award “recipients are responsible for managing
and monitoring each project, program, subaward [emphasis added], function or activity
supported by the award. Recipients shall monitor subawards to ensure subrecipients have
met the audit requirements.” OMB Circular A-133 also provides guidance on subaward
monitoring responsibilities for primary grantees. Specifically, primary grantees should
(1) monitor the subrecipient’s use of Federal funds to provide reasonable assurance that
subrecipients administer Federal awards in compliance with laws, regulations, and the
provisions of award agreements and that performance goals are achieved and (2) ensure
that subrecipients have met audit requirements. In addition, NSF’s Grant General
Conditions (GC-1), July 2002, requires that subaward agreements “flow down” certain
requirements to all subawardees including Article 23, Audits and Records.

       In six of AIM’s seven NSF awards, a significant part of the research effort was
performed by PIs and students working at other academic institutions. However, AIM
did not have an effective process to ensure that it was managing and monitoring its
research costs at other institutions. Specifically, AIM did not have formal written
agreements with its subrecipients that described the services to be performed; set the rate
of compensation and requirements for financial and performance reporting; established
termination provisions; or incorporated NSF award terms and conditions that would
apply to these activities. Further, AIM did not require that its subrecipients provide
evidence of their actual effort toward the funded projects to ensure that costs charged to
NSF were documented and benefited the NSF awards.

        As a result, we questioned XXXXXXX as unsupported subrecipient costs because
AIM disbursed award funds to institutions and individuals based on budgeted rather than
actual costs, and did not maintain documentation to verify that the amount paid was
based on the actual services rendered and was reasonable relative to the subrecipient’s
base salary.

Recommendation

       We recommend that the NSF Directors of the Division of Grants and Agreements
and the Division of Institution and Award Support direct AIM to provide adequate
documentation supporting XXXXXX in costs paid to PIs and students who are located at
other academic institutions and develop and implement a subaward monitoring system
with policies and control processes to document, administer and monitor subaward costs
charged to NSF awards. Specifically, AIM should:



                                            12
   1. Provide adequate documentation to support XXXXXX of claimed subaward and
      independent contractor costs to ensure that the costs represent payments for
      services provided and are reasonable in relation to the rate of compensation paid
      to these individuals by their home institutions, or return the funds to NSF;

   2. Establish written contractual agreements for the services of its subrecipients,
      independent contractors and students; and,

   3. Develop and implement a subaward monitoring system with policies and control
      processes to document, administer, and monitor subaward costs.


Auditee’s Response

   C.1 AIM agrees that there was improper documentation to support some subaward
   and contractor cost. However, AIM has established a subawardee/contractor
   acquisition and monitoring system. The terms and rate of pay are reviewed for fair
   market value before acceptance by AIM. They are to complete the contract before
   work begins and arrangements are then made for payment. Invoices are submitted to
   AIM before payment is made.

   C.2 AIM agrees that there was a need to establish policies and procedures for
   obtaining services with subrecipients, contactors, and students. Beginning in January
   2006, all new subrecipients or subawardees are required to complete a Consulting
   Agreement with AIM and our representative for each project.

   C.3 AIM agrees that it was necessary to develop and implement a subaward
   monitoring system with policies and controls. AIM developed and implemented a
   subawardee monitoring system with control processes to document, administer and
   monitor subawards. These will be reviewed to make sure that all requirements for
   working with and paying subawardees and consultants are in compliance with grant
   policies and OMB circulars.

Auditors’ Response

   AIM comments appear responsive to the recommendations.




                                          13
D. AWARD COSTS CLAIMED FOR AUDIT DID NOT AGREE WITH COSTS
REPORTED TO NSF; ACCOUNTING SYSTEM DOES NOT PROVIDE FOR
THE COMPARISON OF BUDGETED TO ACTUAL COSTS.

        OMB Circular A-110 Uniform Administrative Requirements for Grants and
Agreements With Institutions of Higher Education, Hospitals, and Other Non-Profit
Organizations (A-110) requires that award recipient financial management systems
provide accurate, current, and complete disclosure of the financial results of each award;
effective control and accountability over all funds to ensure use is for authorized
purposes; comparison of outlays with budget amounts for each award; and accounting
records that are supported by source documentation. A-110 also requires that grantees
maintain written procedures for determining whether costs are reasonable, allocable and
allowable, and have written cash management procedures.

       Our audit found that AIM was unable to ensure accurate accounting and reporting
of its NSF awards. AIM used both an automated accounting system and manually-
prepared spreadsheets to track its NSF award costs. However, the amounts reported in
these systems did not agree. Further, neither system agreed with amounts reported to
NSF or to audited costs reported in AIM’s A-133 audits (See Table 4). As a result, we
could not determine nor does AIM know which system is correct. Therefore, AIM
cannot be sure that the amounts claimed to NSF are accurate and reliable.

          Table 4 – Comparison of Claimed versus Audited/Reported Costs

                   A-133 Audit     FCTR to        Claimed for
                     Report         NSF              Audit       Difference     Difference
     Award             (A)           (B)              (C)          (A-C)          (B-C)
DMS-0111966
2002                   $305,963     $282,836         $246,698         $59,265        $36,138
2003                   $787,642     $809,544         $827,333       ($39,961)      ($17,789)
2004                   $961,683     $895,131         $969,287        ($7,604)      ($74,156)
2005                       N/A     $1,206,867       $1,136,936           N/A         $69,931
DMS-0138597
2002                     $15,042     $15,040          $10,040         $5,002         $5,000
2003                     $35,510     $35,247          $32,747         $2,763         $2,500
2004                     $10,000     $10,001          $10,438         ($438)         ($437)
2005                        N/A       $8,712           $8,712           N/A            N/A
DMS-0244660
2003                    $76,077      $75,239          $79,171        ($3,094)       ($3,932)
2004                   $218,495     $219,333         $236,332       ($17,837)      ($16,999)
2005                       N/A      $272,965         $282,469            N/A        ($9,504)
DMS-0244663
2003                     $16,380     $16,380          $18,210        ($1,830)       ($1,830)
2004                     $41,713     $31,284          $30,737        $10,976           $547
2005                        N/A     $280,517         $278,467            N/A          $2,050
DMS-0440545
2004                     $38,726     $38,726          $38,700            $26            $26
2005                        N/A       $6,000          $11,224            N/A        ($5224)



                                             14
       AIM was not aware of the discrepancies until we asked for a reconciliation of the
award costs claimed for the period of our audit to the award costs reported by AIM in
FCTR and A-133 audit reports. The reconciliation identified nearly 200 adjustments for
the years under audit. These discrepancies occurred because the accounting system’s
chart of accounts was complex and did not facilitate tracking and reporting funds
authorized, disbursed, and remaining separately for each NSF award. Further, the
spreadsheets used to track and report quarterly grant disbursements to NSF were prepared
manually and were not integrated with or reconciled to the accounting system.

      While overall, the net differences between AIM’s financial reporting systems are
not material, if the grant financial information in AIM’s system, reports, and resulting
submissions to NSF is inaccurate, then the reviews performed by its Board of Trustees,
AIM management, and NSF, will be of limited value.

Recommendation

       Therefore, we recommend that the NSF Directors of the Division of Grants and
Agreements and the Division of Institution and Award Support direct AIM to develop
and implement a financial management and accounting system with policies and control
processes to ensure that the accounting system tracks grant funds authorized, disbursed,
and remaining separately for each NSF award. Specifically, AIM should:

   1. Review and reconcile its grant expenditure data and amend the FCTR balances to
      correct any prior period errors for each of its active NSF awards;

   2. Maintain and utilize one accounting system for recording, processing,
      summarizing, and reporting financial information to NSF;

   3. Simplify its chart of accounts to the extent practical to facilitate accurate data
      entry and to ensure the system accounts for necessary cost information;

   4. Perform timely reviews of award expenditures to ensure that each quarterly FCTR
      submitted to NSF is supported by its accounting system records.


Auditee’s Response

   D.1 AIM agrees that reconciliation of grant expenditures is needed and has reviewed
   and reconciled all of 2006 grant expenditure data. AIM will review and amend any
   prior periods if necessary.

    D.2 AIM agrees that all accounting should be done with one accounting system.
   The spreadsheet now is reconciled and compared directly with the accounting system
   to ensure accuracy.

   D.3 AIM agrees and has addressed simplification of the chart of accounts to
   correspond with each grant’s actual budget lines.


                                          15
   D.4 AIM agrees and has reconciled and checked each FCTR against the accounting
   system records, starting with 2006.

Auditors’ Response

   AIM comments appear responsive to the recommendations.


Accounting System Does Not Compare Actual to Budgeted Costs

        AIM’s accounting system did not provide for a comparison of actual outlays with
budgeted amounts for each award. While AIM's general ledger did account for various
types of expenses such as travel or salaries, it did not keep track of funds authorized or
remaining on an award-by-award basis. As such, at any moment in time, AIM’s
accounting system did not show the total costs incurred to-date on an individual award or
the available balance of unspent funds.

         Also, AIM did not track and report grant expenditures by budget line item either
in its accounting system or its spreadsheets, thus reducing the effectiveness of the system
and the reports as tools for monitoring grant disbursements. Without a process to
compare and review actual expenses to approved award budgets, AIM could not readily
identify unusual or unauthorized award activity that may be evident in the financial
information. For example, AIM could not readily identify excessive spending rates or
reallocations of funds to other budget categories, both of which might suggest a change in
the scope of the work that would require a notification to NSF. Further, participant
support funds are restricted to participant use only, and thus, must be tracked as a
separate cost category, yet these costs were commingled with staff travel costs.

Recommendation

       We recommend that NSF Directors of the Division of Grants and Agreements and
the Division of Institution and Award Support direct AIM to:

   5. Ensure that its accounting system provides for a comparison of outlays with
      budgeted amounts separately for each NSF award;

   6. Classify expenses in the accounting system as described in the award budget, such
      as participant support, domestic travel, foreign travel, etc;

   7. Develop procedures to analyze the award financial information monthly or
      quarterly and make the requisite clarifications and notifications to NSF;

   8. Monitor participant support expenses as a budget line item and ensure that these
      funds are restricted to participant use only unless specific written prior approval is
      received from the cognizant NSF Program Director.



                                            16
Auditee’s Response

   D.5 AIM agrees and has entered the award budgets into the accounting system. The
   accounting system module now allows running budget/actual reports to see award and
   budget category balances.

   D.6 AIM agrees and has matched the award budget expense lines for clear and easy
   assessment.

   D.7 AIM agrees and has procedures in place to analyze the financial information, as
   well as to keep the PIs well informed of award balances and spending trends.

   D.8 AIM agrees and has separated this category in each grant to ensure the funds are
   restricted to participant use only.

Auditors’ Response

   AIM comments appear responsive to the recommendations.




                                         17
E.    UNSUPPORTED TRAVEL AND PARTICIPANT SUPPORT COSTS

       AIM did not support $23,531 of claimed costs in the sampled non-personnel
costs. The XXX transactions lacked adequate documentation for travel and participant
support costs and represent 27 percent of the tested $85,777 of non-personnel award
costs. This occurred because AIM does not require that its employees provide or
maintain source documentation when submitting expense reports for approval. AIM
approved some payments based on estimated costs or requests without actual cost
documentation, such as a copy of a charge bill instead of an original receipt.

      Further, almost all AIM indirect costs are charged or cost-shared directly to the
NSF ARCC award and AIM does not have a negotiated indirect cost rate agreement with
NSF. Therefore, the XXXXX charged for “indirect costs” under award number DMS-
0440545 is not supported as an allowable, allocable cost.

            Table 5 – Unsupported Costs in Sampled Award Transactions

  Award        Description      Date      Amount               Comment
0111966      Misc Travel       12/02/05   XXXXXX No supporting documentation
0244660      Travel            12/31/05   XXXXXX No supporting documentation
0244663      Per Diem          04/06/05   XXXXXX Estimated cost
0440545      Travel           12/31/05    XXXXXX Inadequate documentation
0111966      Stipend          01/06/05    XXXXXX No source documentation
                              Subtotal    XXXXXX
0440545      Indirect Costs   08/26/04    XXXXXX No indirect cost rate
                              TOTAL       XXXXXX

Recommendation

       We recommend that the NSF Directors of the Division of Grants and Agreements
and the Division of Institution and Award Support direct AIM to:

     1. Provide adequate documentation to support the XXXXX of claimed travel and
        participant support costs or return the funds to NSF and reallocate the XXXXX
        charged as indirect costs to direct costs benefiting the award;

     2. Revise its policies and procedures to ensure that NSF award expenditures are
        supported with cost documentation and reviewed for allowability and compliance
        with Federal regulations prior to disbursing award funds.




                                          18
Auditee’s Response

   E.1 AIM agrees to reallocate the indirect costs to direct costs benefiting the award as
   well as to produce documentation to support the other costs.

   E.2 AIM agrees and has revised its policies and procedures to ensure that
   documentation requirements are met before awards funds are distributed.

Auditors’ Response

   AIM comments appear responsive to the recommendations.




                                           19
                                                                                 Schedule A-1



                         American Institute of Mathematics
                 National Science Foundation Award DMS-0111966
                              Schedule of Award Costs
                      From July 1, 2002 to December 31, 2005
                                     Unaudited

                                                           (A)
                                     Approved            Claimed           Questioned
       Cost Category                  Budget              Costs              Costs

Personnel                           XXXXXXX            XXXXXXX              $1,105,012
Fringe                              XXXXXXX            XXXXXXX                  36,355
Equipment                           XXXXXXX            XXXXXXX                       0
Participant Support                 XXXXXXX            XXXXXXX                   1,500
Travel                              XXXXXXX            XXXXXXX                   4,496
Material, Supplies                  XXXXXXX            XXXXXXX                       0
Other                               XXXXXXX            XXXXXXX                       0

Total Direct Costs                    $3,866,400        $3,180,255          $1,147,363


Cost Sharing                         $1,876,080         $1,846,884           $389,900




(A) The total representing costs claimed differs from the expenditures reported on the
Federal Cash Transactions Report - Federal Share of Net Disbursements as of the
quarter ended December 31, 2005 by $14,123. Claimed costs reported above were
taken directly from the Awardee's books of account.
                                                                                 Schedule A-2


                         American Institute of Mathematics
                 National Science Foundation Award DMS-0138597
                              Schedule of Award Costs
                      From June 1, 2002 to December 31, 2005
                                    Unaudited

                                                           (A)
                                     Approved            Claimed           Questioned
       Cost Category                  Budget              Costs              Costs

Personnel                           XXXXXXX            XXXXXXX                 $54,348
Fringe                              XXXXXXX            XXXXXXX                   1,046
Travel                              XXXXXXX            XXXXXXX                       0
Other                               XXXXXXX            XXXXXXX                       0


Total Direct Costs                       $69,000           $60,938             $55,394




(A) The total representing costs claimed differs from the expenditures reported on the
Federal Cash Transactions Report - Federal Share of Net Disbursements as of the
quarter ended December 31, 2005 by $8,063. Claimed costs reported above were
taken directly from the Awardee's books of account.
                                                                                 Schedule A-3


                         American Institute of Mathematics
                 National Science Foundation Award DMS-0244660
                              Schedule of Award Costs
                      From June 1, 2003 to December 31, 2005
                                    Unaudited

                                                           (A)
                                     Approved            Claimed           Questioned
       Cost Category                  Budget              Costs              Costs

Personnel                           XXXXXXX            XXXXXXX               $415,722
Fringe                              XXXXXXX            XXXXXXX                 23,430
Equipment                           XXXXXXX            XXXXXXX                      0
Travel                              XXXXXXX            XXXXXXX                    914
Participant Support                 XXXXXXX            XXXXXXX                      0
Other                               XXXXXXX            XXXXXXX                      0

Total Direct Costs                     $989,823           $615,727           $440,066




(A) The total representing costs claimed differs from the expenditures reported on the
Federal Cash Transactions Report - Federal Share of Net Disbursements as of the
quarter ended December 31, 2005 by $48,190. Claimed costs reported above were
taken directly from the Awardee's books of account.
                                                                                 Schedule A-4


                         American Institute of Mathematics
                 National Science Foundation Award DMS-0244663
                              Schedule of Award Costs
                  From September 1, 2003 to December 31, 2005
                                    Unaudited

                                                           (A)
                                     Approved            Claimed           Questioned
       Cost Category                  Budget              Costs              Costs

Personnel                           XXXXXXX            XXXXXXX               $280,144
Fringe                              XXXXXXX            XXXXXXX                      0
Travel                              XXXXXXX            XXXXXXX                 10,380
Participant Support                 XXXXXXX            XXXXXXX                      0
Other                               XXXXXXX            XXXXXXX                      0

Total Direct Costs                     $828,000           $395,681           $290,524




(A) The total representing costs claimed differs from the expenditures reported on the
Federal Cash Transactions Report - Federal Share of Net Disbursements as of the
quarter ended December 31, 2005 by $67,501. Claimed costs reported above were
taken directly from the Awardee's books of account.
                                                                                 Schedule A-5


                         American Institute of Mathematics
                 National Science Foundation Award DMS-0352870
                              Schedule of Award Costs
                    From January 1, 2004 to December 31, 2005
                                    Unaudited

                                                           (A)
                                     Approved            Claimed          Questioned
       Cost Category                  Budget              Costs             Costs



Participant Support                 XXXXXXX            XXXXXXX                      $0



Total Direct Costs                  XXXXXXX            XXXXXXX                      $0




(A) The total representing costs claimed agrees with the expenditures reported on the
Federal Cash Transactions Report - Federal Share of Net Disbursements as of the
quarter ended December 31, 2005. Claimed costs reported above were taken directly
from the Awardee's books of account.
                                                                                 Schedule A-6


                         American Institute of Mathematics
                 National Science Foundation Award DMS-0440545
                              Schedule of Award Costs
                     From June 25, 2004 to December 31, 2005
                                    Unaudited

                                                           (A)
                                     Approved            Claimed           Questioned
       Cost Category                  Budget              Costs              Costs

Personnel                           XXXXXXX            XXXXXXX                 $34,528
Fringe Benefits                     XXXXXXX            XXXXXXX                       0
Travel                              XXXXXXX            XXXXXXX                   1,000
Material, Supplies                  XXXXXXX            XXXXXXX                       0
Consultant Services                 XXXXXXX            XXXXXXX                       0
Computer Services                   XXXXXXX            XXXXXXX                       0
Other                               XXXXXXX            XXXXXXX                       0

Total Direct Costs                       $93,147           $44,683             $35,528


Indirect Costs                           $17,224             $5,242             $5,242




(A) The total representing costs claimed differs from the expenditures reported on the
Federal Cash Transactions Report - Federal Share of Net Disbursements as of the
quarter ended December 31, 2005 by $5,198. Claimed costs reported above were
taken directly from the Awardee's books of account.
                                                                                Schedule A-7


                         American Institute of Mathematics
                 National Science Foundation Award DMS-0532088
                              Schedule of Award Costs
                      From July 1, 2005 to December 31, 2005
                                     Unaudited

                                                          (A)
                                    Approved            Claimed          Questioned
       Cost Category                 Budget              Costs             Costs

Personnel                          XXXXXXX            XXXXXXX               $115,266
Fringe                             XXXXXXX            XXXXXXX                    570
Equipment                          XXXXXXX            XXXXXXX                      0
Travel                             XXXXXXX            XXXXXXX                      0
Participant Support                XXXXXXX            XXXXXXX                      0

Total Direct Costs                     $229,957          $169,109           $115,836




(A) The total representing costs claimed differed from the expenditures reported on
the Federal Cash Transactions Report - Federal Share of Net Disbursements as of the
quarter ended December 31, 2005 by $14,170. Claimed costs reported above were
taken directly from the Awardee's books of account.
                                                                                              APPENDIX B


                   William Harrison
                   Office of Inspector General
                   National Science Foundation
                   420 1 Wilson Blvd.
                   Arlington, Virginia 22230


                   Subject: Response and Comments to Audit dated March 7,2007


                   Dear Mr. Harrison,

I                  AIM would like to thank you for all of your help during this audit process. We
                   appreciate your many recommendations and suggestions. Because of these, AIM

I                  has made many changes in our policies and procedures, and we would like to take
                   this opportunity to mention these in response to your report.

                   1) Executive Summary Bullet Points:
                            A) Documentation for employee salaries is being done with the use of
                            monthly Effort Reports starting with January 2006'payroll, 3)Also,
                            beginning with January 2006, all new subawardees and independent
                            contractors are required to complete consultant agreements and other
                            paperwork before doing any work for our various grants and programs, and
                            C) proper documentation i-e., receipts and reimbursement forms, are
I~mericanlnsti~e
  of MATHEMATlCS            required for all travel and participant support reimbursements. AIM has a
                            written policy explaining this procedure.
                            AIM agrees that it is necessary to establish an indirect cost rate and policies
                            to distribute properly its actual indirect costs. AIM plans to negotiate our
                            indirect cost rate with NSF in the near future.
                            There is no question as to the fact that each subawardee or subcontractor did
                            indeed accomplish the tasks that they were hired for. As mentioned above,
                            we have now established mechanisms to properly acquire their services and
                            to document their efforts.
                            AIM'S accounting system and methodology has undergone many changes
                            since the visit of the NSF audit team. We are working hard at keeping the
                            list of accounts simple and our financial data highly accurate. The only
                            manual spreadsheet that is still in use, for the FCT Reporting, is now
                            reconciled against the automated accounting system to find and correct any
                            errors.
                   1 a) Executive Summary - Final Paragraph: AIM is working hard at becoming
                        expertly familiar with all of the OMB Circular standards that apply to our
                        Institution (A-1 10, A- 122 and AS133). A member of our staff will be attending
                        the upcoming NSF Regional Grants Conference on March 19-20,2007. AIM is
                        also trying to invest in our current employees, and provide them with any
                        additional training that they may need in order to correctly carry out their job
                        duties.
2) A. Internal Control System: Paragraph 3: AIM is working very hard to
   correct or establish proper policies and procedures that meet the standards and
   regulations that Institutions of our type are required to operate by.

       Regarding job descriptions and personnel files: AIM does have written job
       descriptions for all of its employees. AIM is working to make sure that those
       descriptions are as clear, detailed and accurate as possible, and that
                                                                                ,
       employee files are complete and up-to-date for all current employees.

       Internal Controls, paragraph 4: As noted, AIM'S Executive Director and its
       Board of Trustees have increased their grant monitoring activities by
       increasing the financial monitoring that the Executive Director does
       concerning the segregation of duties. This too, is an ongoing process that
       AIM continues to be mindful of.

  2a) Internal Controls Bullet Points in Paragraph 5:
      AIM has established Effort Reporting, Consultant Agreements, and written
      policies for handling all travel and participant support expenses.
      AIM will work with the NSF to establish an indirect cost rate, so that in the
      future all grant charges and cost shared items will properly be disbursed
      among all of AIM'S active awards.
      A clarification should be made about the use of the automated accounting
      system and the manually prepared spreadsheets. The accounting system is
      used for all entries and tracking. The spreadsheets are only used for the
      completion of the FCT Reports. Thus, the data contained on the FCT
      Reports contain the errors, and not the accounting system. Before the start of
      2006, there was no reconciliation taking place between the system and the
      spreadsheets. Rather the spreadsheets were generated strictly by using the
      data from the cash requests. So if checks and payments for grant expenses
      were somehow missed or the wrong amounts were requested, the FCT
      Report then failed to show those discrepancies.
  2b) Internal Controls paragraph 6-7: As previously touched on, AIM is
      addressing the need to have s M that is sufficiently trained in Federal award
      regulations. This is being accomplished by providing all key employees
      with copies of each OMB circular that applies to our Institution with the
      requirement that those circulars be read and the standards therein be applied.
      Also, AIM'S Financial Officer has already made arrangements to attend the
      NSF Regional Grants Conference in March 2007. Any future conferences or
      seminars that could be of benefit to AIM's staff and the fulfillment of their
      duties will also be considered.

       The detailed financial reports that have been presented to the Board of
       Trustees on a regular basis since July 2006, have indeed been helpful to
       AIM's daily operations. Since then, members of theBoard have made many
       recommendations that AIM has already implemented. The Board's
       continued involvement will be instrumental to AIM's development and
      growth. It is the Board's wish that AIM continue to work hard at meeting
      the Federal standards now and continue to do so in the future.
2c) Internal Controls System Recommendations:
        AIM plans to develop written polices and procedures that will guide
        AIM'S Board of Trustees and its employees in the conduct of our financial
        and grant compliance duties.
        Since June 2006, AIM has current and complete personnel files for all of
        its active employees. AIM does have written job descriptions already in
        place and we are working on improving the clarity and detail for the
        financial and grant management positions.
        Ensuring that AIM personnei are trained and knowledgeable has been and
        will continue to be, very important to our operations. AIM'S key
        employees will be free to attend at least one training/compliance seminar
        per year. Also, key staff will be required to keep current with all OMB
        Circular Amendments and changes, as well as the Grants Policy Manual.

3) B. Internal Controls Over the Distribution of Direct and Indirect Costs
       Paragraphs 1 through 5: Beginning with January 2006, AIM has signed
       after-the-fact activity reports for each month that an employee or contractor
       receives a direct payment from AIM. These reports account for 100% of
       activity and correspond to at least one pay period. Salaries for employees
       that are used in meeting cost-share requirements are also being tracked in
       the same manner.
   3a) AIM Does Not Have an Indirect Cost Rate: All activities, even the few that
       have no direct relation to a specific award, could be regarded as supporting
       ARCC. The ARCC grant is an Institute Award and all outreach programs
       and Fellowships awarded by AIM can be regarded as activities that support
       or benefit ARCC and other grant awards. The same can be said of the small
       percentage of time and effort that AIM staff may spend on these non-funded
       activities.
       3b) Section B Recommendations:
           AIM agrees that there was a lack of documentation to support claimed
           salary costs.
           AIM agrees that there was a need to establish a process for documenting
           and certifying the activities of AIM'S salaried employees. Starting in
           January 2006, all salaried employees are required to complete an effort
           report for each month that they receive pay. This Effort report contains
           a description of the duties/tasks that they perform with their time and
           effort distributed among those tasks equaling 100%. These are signed
           and submitted each month. So none are overlooked, a checklist has been
           created to mark off each report that is received for each salaried
           employee. The current form may need to also include a mechanism to
           calculate direct versus indirect costs, once we have negotiated an
           indirect cost rate with the NSF.
           AIM concurs that there is a need to develop and implement written
           policies and procedures for the classification, recording, and reporting of
           direct and indirect costs in the accounting system as regards to any
           salary, equipment, and supplies that this may apply to. AIM is currently
           in the process of developing and implementing the polices and
           procedures that are needed to do that.
           AIM agrees that we need to establish an indirect cost rate, so we will
           develop and submit an annual indirect cost rate proposal to NSF.

4) C. Monitoring of Subaward and Independent Contractor Costs: There is no
   question that.the subawardees and subcontractors of AIM did indeed perform
   the tasks and work that they were hired for.
   4b) Section C Recommendations:
            A M agrees that there was improper documentation to support some
            subawards and contractor cost. However, AIM currently has an           .

            established subawardeelindependentcontractor acquiring and
           .monitoringsystem.
            AIM agrees that there was a need to establish policies and procedures
            for obtaining services with subrecipients; contractors, and students.
            Beginning in January 2006, all new subrecipients or subawardees are
                                                                                 .
            required to complete a Consulting Agreement with AIM and our
            representative for each project. The terms and rate of pay are reviewed
            for fair market value before acceptance by AIM. They are to complete
            the contract before work begins and arrangements are then made for
            payment either through another Institute or to the individual directly.
            Invoices forservices are submitted to AIM before payment is made.
            Depending on the payment arrangements, they then submit either a
            monthly (if paid monthly) or a final report upon completion of their'
            contract.
            AIM agrees that is was necessary to develop and implement a subward
            monitoring system with policies and controls. AIM has already
            developed and implemented a subawardee monitoring systemwith
            control processes to document, administer and monitor subawards.
            These will be reviewed to make sure that all requirements for working
            with and paying subawardees and consultants are in compliance with
            grant polices and OMB circulars.

5) D. Award Cost Claimed; Accounting System to Provide Comparison of
   Budgeted to Actual Costs: AIM is able to ensure accurate accounting and
   reporting of its NSF awards. The amounts provided for the NSF audit (Column
   C on Table 4) were un-audited amounts produced from the automated
   accounting system that were not intended to be used for comparison against
   previous A-133 audit reports. Several spreadsheets of data have been provided
   to the NSF audit team since their visit, to explain why those numbers were
   seemingly off. AIM is confident that our A-133 Audit figures are correct. That
   being the case, AIM feels that there are no discrepancies.
   5b) Section D Recommendations:
       AIM agrees that a reconciliation of grant expenditures is needed for each
       of its active awards. AIM has already reviewed and reconciled all of
       2006 grant expenditure data. AIM will also review, reconcile and if
        necessary amend any prior periods.
        AIM agrees that all accounting should be done with the use of one
        accounting system. AIM does maintain and utilize one accounting
        system for recording, processing, and summarizing our financial data.
        Additional methods are only used for compiling data for the FCT
        Reports. The spreadsheet is now being reconciled and compared directly
        with the accounting system to assure its accuracy.
        AIM agrees that it is important to have a simple chart of accounts.
        Simplification of the chart of accounts has already been addressed with
        the removal or combining of accounts to better correspond with the
        actual budget lines for each grant. AIM will continue to monitor this in
        the future to be sure that the chart of accounts remains as simple and
        straightforward as possible.
        AIM agrees that timely reviews need to be performed for the award
        expenses and that FCTR is supported by the accounting system. Each
        FCTR, starting with 2006, is now reconciled and checked against the
        accounting system records.
5c) Accounting System to Compare Actual to Budgeted Costs: AIM has
inputted budgets for each of our active awards for 2006 and 2007 that
correspond to the to the grant budget lines as outlines for each grant. This
allows for proper tracking and comparisons for budgeted versus actual
expenses. Running budget/actual reports allows AIM to see any balance of
unspent funds, proper distribution of expenses to the right categories and to help
identify any relocations of funds, excessive spending or change in the scope of
work for each award separately.
Recommendations:
        AIM agrees that it is important to be able to compare budget versus
        expenses amounts separately for each NSF award. The Budget/Actual
        feature of our accounting system is being used to monitor each grant
        separately. The approved NSF budgets have been entered into that
        module of the accounting system, so that budget amounts versus
        expensed amounts can be tracked and compared for each grant.
        AIM agrees that proper classification of expenses as described in the
        award budget is important for proper tracking and budgeting of each
        award. AIM'S accounting systems budget and expense account lines
        match the descriptions in the award budget for clear and easy assessment
        that is carried out on an ongoing basis.
         AIM agrees that analysis of the award financials is necessary.
         Procedures are already in place to analyze the financial information for
         each award. Budget/Actual reports are used on a quarterly basis to
         review spending and to verifj proper allocation, as well as to keep the
         PI'S for each grant well informed of balances and spending trends.
          AIM agrees that it is proper and necessary to distinguish participant
          support from other award expenses. Participant Support is a budget line
          item and a separate expense line item for each grant to ensure that these
          funds are restricted to participant use only.
6) E. Travel and Participant Support Costs: AIM has improved its requirements
   and administration for travel and participant costs. AIM has a written policy for
   the documentation and payment of these costs.
   6a) Section E Recommendations:
          AIM agrees that proper documentation is n e m and required for all
          award costs. AIM agrees to reallocate the c h a r g e d as indirect
          costs 8 direct costs to benefit the awqd. AIM has the documentation for
          o         f t -h e t h a t was claimed asunsupported
                    .                                     .   .        and we are in
                                                                         ~   ~




          prosas of gathering- me necessary documents for the remaining   -
       i

             AIM agrees that it is essential to have policies and procedure in place
             that ensure that NSF award expendit&& are suppoked with
             documentation and reviewed for allowability and compliance with
             Federal regulations. AIM has revised its.policies and procedures to
             ensure that NSF award expenses meet those standards before
             .distributingaward funds.

Again, AIM thanks you for your suggestions and recommendations, We look
forward.todiscussing these items &her with you during our scheduled conference
call.


Sincerelv,
